                          UNITED STATES DEPARTMENT OF EDUCATION 

                                           OFFICE OF INSPECTOR GENERAL 

                                     1999 BRYAN STREET, HARWOOD CENTER, SUITE 2630 

                                                 DALLAS, TEXAS 75201-6817 

                                          PHONE: (214) 880-3031 FAX: (214) 880-2492 



                                                       DEC I 3 2004


Ms. Sharon Wells
Education Program Specialist
U. S. Department of the Interior
Bureau of Indian Affairs
Office of Indian Education Programs
1849 CSt., NW, Room 3512, MIB
Washington, DC 20240

Dear Ms. Wells:

This Final Audit Report (ED-OIG/A06-E0011) presents the results of our audit of the
Individuals with Disabilities Education Act (IDEA), Part B requirements at Turtle Mountain
Elementary and Middle Schools for the period July 1,2001, through September 30,2003. Our
objective was to determine whether Turtle Mountain Elementary and Middle Schools
administered IDEA, Part B funds in accordance with requirements, laws and regulations, and
provided services to eligible children in accordance with each student's Individualized Education
Program (IEP).

We provided a draft of this report to the Bureau of Indian Affairs (BIA), Office of Indian
Education Programs. In its response to our draft report, BIA officials generally agreed with our
recommendations. We have summarized BIA's comments in the body of the report and have
included the response as an Attachment to this report.



   II                                            BACKGROUND

The Department of Education (Department) provides funding from major program grants to the
Bureau of Indian Affairs (BIA), an agency within the Department of the Interior. The BIA
allocates these funds to elementary and secondary schools operated or funded by the Secretary of
the Interior, including tribally operated schools that are funded by the BIA. These grants support
students with disabilities and disadvantaged children. The Department provided $140 million
(22 percent) of BIA' s school operating funds in 2002. The program funds from the Department
have constituted an increasing share of these schools' operating budgets since fiscal year (FY)
1999 (from 18.2 percent to 22 percent in fiscal year 2002). This is due in part to large increases
since 1999 in two major Department programs under which BIA receives funds, IDEA, Part B,
and Elementary and Secondary Education Act, Title I (Title I). At BIA funded schools, funds for
students with disabilities under IDEA increased by 50 percent, and Title I funds for
disadvantaged students increased by 21 percent for fiscal years 1999 through 2002. As the



        Our mission is to promote the efficiency, effectiveness, and integrity o/the Department's programs and operations
ED-OIG/A06-E0011                                                                           Page 2 of 7


IDEA, Part B appropriation increased, IDEA, Part B funds provided to the Secretary of the
Interior have been capped in the FY 2002, 2003 and 2004 appropriation language at the prior
year’s funding level, plus inflation.

IDEA, Part B requires the Department to provide funds to the Secretary of the Interior to assist in
providing special education and related services to children with disabilities. From the amount
appropriated for any fiscal year, the Department shall reserve 1.226 percent to provide assistance
to the Secretary of the Interior, of which 80 percent is allotted for serving children ages 5 through
21 with disabilities enrolled in elementary and secondary schools for Indian children operated or
funded by the Secretary of the Interior. The Secretary of the Interior is required to submit
information to the Department that it meets the requirements of IDEA. In addition, the Secretary
of the Interior will provide several assurances, including an assurance that the Department of the
Interior will cooperate with the Department in its exercise of monitoring and oversight
requirements.

BIA funded schools are to use 15 percent of the Indian School Equalization Program (ISEP)
formula funds generated by their base instructional administration to fund their special education
programs. ISEP funds constitute the largest amount of the Department of Interior funds used for
school-level administration, such as principals’ salaries and administrative assistance, in addition
to salaries for teachers, teacher aides, and the cost of materials. If the 15 percent is not sufficient
to fund the services needed by all eligible ISEP students with disabilities, then the school may
apply for IDEA, Part B funds. Schools must demonstrate need when applying for these funds.

Turtle Mountain Elementary and Middle Schools are located in Belcourt, North Dakota. The
BIA disbursed $1,286,403 of IDEA, Part B funds to these two schools for our two-year audit
period as follows—

                           School Year 2001-2002                       $ 655,160
                           School Year 2002-2003                       $ 631,243
                           Total                                       $1,286,403

For the 2001-2002 school year Turtle Mountain Elementary and Middle Schools had an
enrollment of 989 students with 261 classified as disabled; and in the 2002-2003 school year,
enrollment was 1,002 students with 255 classified as disabled. The average amount of IDEA,
Part B funds per pupil was $2,510 in the 2001-2002 school year, and $2,475 in the 2002-2003
school year.
ED-OIG/A06-E0011                                                                                       Page 3 of 7


                                            AUDIT RESULTS


Turtle Mountain Elementary and Middle Schools were unable to demonstrate that they provided
the planned special education and related services to 53 percent of the students in our sample in
accordance with their IEPs.

According to 34 C.F.R. § 300.341(a)(1)(2), The [Secretary of the Interior]1 shall ensure that each
public agency develops and implements an IEP for each eligible child with a disability served by
that agency. The IEP must contain certain elements according to 34 C.F.R. § 300.347,
including—

     (a)(3) A statement of the special education and related services and supplementary aids
     and services to be provided to the child, . . .

     (a)(7)(ii)(A) A statement of how the child’s parents will be regularly informed (through
     such means as periodic report cards), at least as often as parents are informed of their
     nondisabled children’s progress, of . . . Their child’s progress toward the annual goals.

Further, 34 C.F.R. § 300.350 (a)(1) requires that each public agency must provide special
education and related services to a child with a disability in accordance with the child’s IEP.

An IEP has several elements including the child’s present level of educational performance, the
annual goals and objectives, as well as the direct special education and related services that will
be provided to help meet those goals and objectives. The IEP must include a statement of how
the parents will be informed of their child’s progress including the extent to which the progress is
sufficient to enable the child to achieve the annual goals. However, the progress reports
provided to parents do not address the frequency and duration of services being provided. The
frequency and duration of actual services provided should be documented in teachers’ attendance
records.

Concerning the need to document special education services provided, OMB Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments, Attachment A, Paragraph C.1
(1997) provides that—

     To be allowable under Federal awards, costs must . . . Be necessary and reasonable for
     proper and efficient performance and administration of Federal awards . . . Be allocable
     to Federal awards . . . Be adequately documented.




1
  The regulations specifically refer to the SEA (State Educational Agency). However, 34 C.F.R. § 300.267 requires
the Secretary of the Interior to comply with specific sections of 34 C.F.R. Part 300, including 34 C.F.R. § 300.341.
ED-OIG/A06-E0011 	                                                                     Page 4 of 7


To determine if Turtle Mountain Elementary and Middle Schools were providing the required
services and documenting those services, we selected a 10 percent random sample of 26 of 261
students with disabilities in school year 2001-2002 and 27 of 255 students in school year 2002-
03. We found all the files contained an IEP. However, Turtle Mountain Elementary and Middle
Schools did not provide any services to 3 of the 53 students in our sample, and we could not
determine what services, if any, were provided to 25 other students because of a lack of
documentation. Additionally, Turtle Mountain Elementary and Middle Schools did not develop
the required progress reports informing the parents of their child’s progress as specified in the
student’s IEP for 12 of the 53 students in our sample.

We concluded these conditions occurred because school officials did not have procedures in
place to (1) ensure special education and related services were provided in accordance with the
student’s IEP, (2) ensure that parents are informed of their child’s progress as specified in the
student’s IEP, and (3) document that special education and related services were provided to all
students with disabilities in accordance with their IEPs.

Based on the high error rate in our samples, we believe Turtle Mountain Elementary and Middle
Schools may not be able to document that they provided the required special education services
to a significant percentage of the students with disabilities during our two-year audit period. The
high error rate and lack of documentation indicates that Turtle Mountain Elementary and Middle
Schools have a management system that does not meet the management standards set forth in the
regulations. The regulations at 34 C.F.R. § 80.12(a) state that a grantee may be considered “high
risk” if an awarding agency determines that a grantee—

       (1) Has a history of unsatisfactory performance, or
       (2) Is not financially stable, or
       (3) Has a management system which does not meet the management standards set forth in
           this part, or
       (4) Has not conformed to terms and conditions of previous awards, or
       (5) Is otherwise not responsible; and if the awarding agency determines that an award
           will be made, special conditions and/or restrictions shall correspond to the high risk
           condition and shall be included in the award.


                                 RECOMMENDATIONS

We recommend that the Assistant Secretary for Special Education and Rehabilitative Services
instruct the Bureau of Indian Affairs to—

1. 	 Obtain assurance from Turtle Mountain Elementary and Middle School officials that the
     $1,286,403 of IDEA, Part B funds was used to deliver the educational assistance proposed in
     each of the IEPs for the 516 children with disabilities.
ED-OIG/A06-E0011 	                                                                       Page 5 of 7


2. 	 Instruct Turtle Mountain Elementary and Middle Schools to document all special education
     and related services provided to each current student with disabilities and develop a progress
     report to inform parents of their child’s progress.

3. 	 Submit a corrective action plan, which includes strategies, benchmarks, proposed evidence of
     change, targets and timelines, to ensure the noncompliance identified in this audit is
     corrected.

We also recommend the Assistant Secretary for Special Education and Rehabilitative Services—

4. 	 Evaluate the corrective action plan submitted and determine whether the action proposed will
     correct the noncompliance identified in this audit.

5. 	 Monitor the corrective action taken and determine if it was effective. If the corrective action
     was not effective, determine whether Turtle Mountain Elementary and Middle Schools
     should be designated as high-risk grantees.


                       BIA’S COMMENTS TO THE DRAFT REPORT

BIA agreed to implement our recommendations. BIA stated, “Generally, there is agreement with
the proposed recommendations in your letter.” BIA will obtain a written assurance from Turtle
Mountain Elementary and Middle Schools that IDEA funds were used to provide services to 516
students with disabilities. Special education teachers will document progress of students with
disabilities and maintain attendance records documenting frequency and duration of services
provided. BIA also proposed a corrective action plan that included strategies, benchmarks,
timelines to ensure the noncompliance(s) identified in the draft report was corrected.


                                             OIG’S RESPONSE

We reviewed the BIA response to the draft report and the corrective action plan. We believe the
proposed corrective actions will address the issue of documenting services provided to children
with disabilities.


                        OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Turtle Mountain Elementary and Middle Schools
administered IDEA, Part B funds in accordance with requirements, laws and regulations2, and
provided services to eligible children in accordance with each student’s IEP.


2
    Code of Federal Regulations 34 Parts 300 to 399, revised as of July 1, 2002.
ED-OIG/A06-E0011 	                                                                     Page 6 of 7


To accomplish our objective, we—

   • 	 Reviewed each school’s Special Education application and budget;
   • 	 Reviewed detailed expense reports and payroll information regarding IDEA, Part B
       expenditures. We compared the information to budget information and performed
       reasonableness tests on the information provided.
   • 	 Reviewed the student roster for the 2001-2002 and 2002-2003 school years;
   • 	 Reviewed the organizational chart and special education staff roster;
   • 	 Randomly selected and reviewed at least 10 percent (52) of the files for students
       requiring special education services. We reviewed 1 additional file because time
       permitted. We examined the files for IEPs, progress reports, and a list of services to be
       provided. We then compared the list of services to supporting documentation (i.e.
       teacher attendance books, special education providers’ attendance books, and other
       relevant documentation); and,
   • 	 Interviewed various Turtle Mountain Elementary and Middle Schools employees,
       Belcourt Public School District officials, and Department of Interior/BIA officials in
       Albuquerque, New Mexico, and Minneapolis, Minnesota.

We relied upon the computerized student roster lists provided by Turtle Mountain Elementary
and Middle Schools officials for selecting our sample. We tested the student roster lists for
accuracy and completeness by comparing selected source records to the roster list. Based on this
test, we concluded the student roster list was sufficiently reliable to be used for the sample
population.

We conducted our fieldwork at Turtle Mountain Elementary and Middle Schools in Belcourt,
North Dakota, on March 9 - 17, 2004. We discussed the results of our audit with Turtle
Mountain Elementary and Middle Schools officials on March18, 2004. An exit conference was
held with BIA officials on April 27, 2004.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of audit described above.


                    STATEMENT ON INTERNAL CONTROLS

As part of our review, we assessed Turtle Mountain Elementary and Middle Schools’ system of
internal controls, policies, and procedures applicable to providing special education services to
children with disabilities. Because of inherent limitations, a study and evaluation made for the
limited purposes described above would not necessarily disclose all material weaknesses in the
internal controls. However, our review identified that Turtle Mountain Elementary and Middle
Schools’ need to improve their internal controls related to documenting special education and
related services provided to children with disabilities in accordance with each child’s IEP. Those
weaknesses and their effects are discussed in the AUDIT RESULTS section of this report.
ED-OIG/A06-E0011                                                                          Page 7 of 7


                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a
bearing on the resolution of this audit, you should send them directly to the following
Education Department officials, who will consider them before taking final
Departmental action on the audit:

                      Troy Justesen, Ed.D.
                      Acting Assistant Secretary
                      Office of Special Education and Rehabilitative Services
                      U.S. Department of Education
                      Federal Building No. 6, Room 3W315
                      400 Maryland Avenue, SW
                      Washington, DC 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits
by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 30 days would be greatly appreciated.

In accordance with Freedom of Information Act (5 U.S.C §552), reports issued by the Office of
Inspector General are available, if requested; to members of the press and general public to the
extent information contained therein is not subject to exemptions in the Act.

                                                     Sincerely,


                                                     /s/
                                                     Sherri L. Demmel
                                                     Regional Inspector General
                                                       for Audit

Attachment
                           United States Department of the Interior
                                          BUREAU OF INDIAN AFFAIRS
                                                Washington. D.C. 20240



IN REPLY REFER TO:
                                                                   OCT 29 2004

  Sherri L. Demmel 

  Regional Inspector General for Audit 

  U.S. Department of Education 

  Office of Inspector General 

  1999 Bryan Street, Suite 2630 

  Dallas, Texas 75201-6817 


  Dear Ms. Demmel:

  This letter is written in response to the results of the Office oflnspector General audit of the
  Individuals with Disabilities Education Act (IDEA), Part B requirements at Turtle Mountain
  Elementary and Middle Schools for the period July 1,2001, through September 30,2003. As
  stated in your letter, the objective was to determine whether Turtle Mountain Elementary and
  Middle Schools administered IDEA, Part B funds in accordance with requirements, laws and
  regulations, and whether they provided services to eligible children in accordance with the
  student's Individualized Education Program (IEP).

   Generally, there is agreement with the proposed recommendations of your letter. Specifically,
   our response is outlined below:

        1. 	 Draft Audit Report Recommendation: Obtain assurance from Turtle Mountain
             Elementary and Middle School officials that the $1,286,403 oflDEA, Part B funds was
             used to deliver the educational assistance proposed in each of the IEPs for the 516
             children with disabilities.

              Response: A written assurance from Turtle Mountain Elementary and Middle Schools
              will be obtained through the Grant Officer/Education Line Officer, indicating that IDEA
              funds were used to provide services to the 516 students with disabilities during SY 01-02
              and SY 02-03 in accordance to each student's IEP. In addition, Turtle Mountain
              Elementary and Middle Schools submitted the IDEA (Part B) budget to the Turtle
              Mountain Agency as part of their annual Consolidated School Reform Plan Application
              amendment for SY 01-02 and SY 02-03. This budget provides information as to how Part
              B money was used for that two-year period and is filed at the agency and the Center for
              School Improvement. In addition, a detailed expenditure report for those two years is
              kept at the school's budget office.

         2. 	 Draft Audit Report Recommendation: Instruct Turtle Mountain Elementary and
              Middle Schools to document all special education and related services provided to each
              current student with disabilities and develop a progress report to inform parents of their
              child's progress.
                                                                                          Attachment



       Response: The Turtle Mountain Agency will continue to validate services through the
       Indian School Equalization Program (lSEP) count process conducted in October 2004
       and each October thereafter. This is conducted using a checklist completed on 100% of
       the students in the school's special education program. (See Attachment A) The agency
       staff conducts Second Tier monitoring between January - April of each year which
       involves a more extensive checklist (67 items) and is done on 10% of student files. (See
       Attachment B) Each year a new group of student files are reviewed in order to gather
       more quantitative data. As part of the IEP, Turtle Mountain Elementary and Middle
       Schools use Form 2ID to document how the parents are informed of the progress of their
       children (See Attachment C) The progress report, Form 23, is customarily sent to parents
       simultaneously when report cards are mailed out. (See Attachment D). Form 27 of the
       IEP is a Contact Log which identifies any contact made with parents, including progress
       of the students. (See Attachment E) In addition, the Turtle Mountain Education Line
       office will conduct random on-site validations visits for attendance and progress
       documentation. Turtle Mountain Elementary and Middle Schools will finalize their
       special education policies and procedures to ensure all services are provided, including
       informing parents of their child's progress as specified in the student's IEP.

   3. 	 Draft Audit Report Recommendation: Submit a corrective action plan, which includes
        strategies, benchmarks, proposed evidence of change, targets and timelines, to ensure the
        noncompliance identified in this audit is corrected.

       Response: See Attachment F .

Thank you for allowing this office the opportunity to respond to the audit. If you should have
questions, please contact Gloria Yepa at 505-248-7541.

                                     Sincerely,



                                    ~J~
                                  ~ard Parisian
                                 1 ~~~~tor, Office oflndian Education Programs
Enclosures
                                         ..... ..... .....                              .....                                      ......
()
          ~
          f'­
                'N
                ~    .
                     'N
                     )0000
                             'N
                             0.
                                  )ool

                                  'P ?' ;-J ?" PI
                                                             )ool   )ool

                                                                    ~
                                                                           J-O
                                                                           ~
                                                                                 )ool

                                                                                 f-'    .....   J-l
                                                                                                ?
                                                                                                      'P ?l :-l ?'   ~   !""   ~
                                                                                                                                                                               ,
                                                                                                                                                                                                   r.n                                        l­
:r                                                                                                                                                                                                 n                                         es
                                                                                                                                                                                                                                             .....
~
0
                                                                                                                                                                                                   ::r
                                                                                                                                                                                                   ¢                                         t-.:
~                                                                                                                                                                                                                                           .t!
                                                                                                                                                                                                   S­                                        -...
                                                                                                                                                                                                                                             N
6                                                                                                                                                  00                                          i
                                                                                                                                                                                                   \                                         CSI



                                                                                                                                                                                               II
                                                                                                                                                                                                                                             CSI
)0-1
;I                                                                                                                                                 9"                                                                                        +>
e:
0
                                                                                                                                                   c..
                                                                                                                                                   ~                                                                                         CSl
w
,....                                                                                                                                              ::s                                                                                       lD
(l
                                                                                                                                                   s::!;
                                                                                                                                                                                                                                            W
II)
                                                                                                                                                   ~                                                                                        W
                                                                                                                                                   '"I
~
,...                                                                                                                                               =>
                                                                                                                                                   c..
-.
(f.I
(f.I                                                                                                                                               I'D
                                                                                                                                                                                                                                  ~Ul

-
~
OQ

~
p                                                                                                                                                                                                                       0""'!lI
                                                                                                                                                                                                                                  t~

                                                                                                                                                                                                                                  ,         N
                                                                                                                                                                                                                                            .P>­
                                                                                                                                                                                                                                            CD
                                                                                                                                                                                                                                            --.J


                                                                                                                                                                                                   ~ 

                                                                                                                                                                                                                                            Ul

                                                                                                                                                                                                            S;::t
                                                                                                                                                                                                              !")
                                                                                                                                                                                                                  j"-~
                                                                                                                                                                                                   ~.
                                                                                                                                                Disability Cat,egory.                                     w~tD                    3

                                                                                                                                                                                                   I'D
                                                                                                                                                                                                   ""I    g"oos,                  ~
                                                                                                                                                                                                          Q"O           )0000I

                                                                                                                                                                                                          -~=
                                                                                                                                                Current Date 'on IEP.
                                                                                                                                                                                                                =.,.= ~
                                                                                                                                                                                                          ~,... ~
                                                                                                                                                                                                          I'D

                                                                                                                                                Hours ,ofSetVice 'Stated on IEP and
                                                                                                                                                                                                          fjI
                                                                                                                                                                                                          '"I
                                                                                                                                                                                                                -
                                                                                                                                                                                                                t.!!J
                                                                                                                                                                                                                go~
                                                                                                                                                                                                                        =
                                                                                                                                                Verifi'~d b{L~n:'flan(s) and/or Special                         !')     Clo       :t>
                                                                                                                                                           . AtteudBuee
                                                                                                                                                EdtIeatiOi;:      . .­  Roster.                                 a=
                                                                                                                                                                                                                ...·n                   t:1
                                                                                                                                                                                                                Q       ~               0
                                                                                                                                                                                                                :If"'!'                 H




                                                                                                                                                                                                                ... . =0 

                                                                                                                                                                                                                (j ....
                                                                                                                                                PeniIission'-fot pJacement - Parental or                        I'D                    H
                                                                                                                                                                                                                                        to

                                                                                                                                                Guardian Si~t1ires.                                                                    1>
                                                                                                                                                                                                                '''''~                 0
                                                                                                                                                                                                                :IIl'1                 H
                                                                                                                                                                                                                !') 0                  fT1
                                                                                                                                                                                                                !(JQ
                                                                                                                                                                                                                  '..,                 -0

                                                                                                                                                                                                                o =
                                                                                                                                                Present Level ofEdufation Perfonnant:e,                                                0


                                                                                                                                            ~
                                                                                                                                                Annual GoaIs~ BenchInarkersJObjectives
                                                                                                                                                & Progi'ess'Re,u)l'ts.:': R-
                                                                                                                                                                                                                = 8     (II
                                                                                                                                                                                                                                       ill
                                                                                                                                                                                                                                       H

                                                                                                                                   ',:"



                                                                                                                                                Transition PWrniilg14,years +.                     0
                                                                                                                                                                                                   ....
                                                                                                                                                                                                   ~
                                                                                                                                                                                                   ~
 l"tj
 ~                                                                                                                                              Verified Paraprofessional Consultation
                                                                                                                                                wi~SpeciaiEdtIcaiio]] Teachers for
OQ
    (I)

                                                                                                                                                Students Participilting in IiicJusion.
I
  0
                                                                                                                                                                                                                                      -0
                                                                                                                                                                                                                                      1>
                                                                                                                                                                                                                                      G)
                                                                                                                                                                                                                                      fT1
                                                                                                                                                Appropriate c;::ertificatioB of Teachers and

C                                                                                                                                               As~ent       Team members..
    10/29/2004 	 09:33                                                                            Attachment
                                   5052487545 	                            DOl BlA OlEP CSl
                                                                                                                     PAGE       03/11
                                              A't\tlC- \A.. V\Il.£V\..T      C>
Agbncy~~~~ 	                                   Monitor                                              Date Monitored 07/09/2004
School S.V.'tAtn@~                                            Teach.r~
                                                ---....---­
                                      ___________ DOB 03-05-1987
Student~g~~.~!!!!!!?~                                                                                      Age ~ Grade            12
Disability         Specific Learning Disability
             ----~----------~------~---
Student Status New File

                   Y=Yes                                               N = No                          T= Transfer
                   NA;:: Not Applicable                o   = Old (Activity that happen 3 or mo,re ye41r8 in the p'ast.)
                                                                                                            ,               '      '.




Directions: 	Select the acronym, defined above, that-best describes ea,ch,compiianC:e ,concern. E~plain
             an "N" in the comment section by selecting the,proPQ~ed resPQns$s     defining your own            or
             using
               .
                   "Ed,it'l,
                            or "other".
                               "  ,
                                                               "              '

 { OSNEAAL "~EQti'I~M~NT :"
    ,~j:i~ In,~ect.ire looatiOn~'(30(i~'72)
 Comm~nt:'        '

    b. AccesS log is included in file and completed correctly. (300.563)
 Comment:


 2. Evaluation Procedures
    a, Prereferral interventions oompleted prior to referral to special education. Date:
       (300.583)
 Comment:


    b. Referral form included in file. Date:                                  (BIA Eligibility Document)
 Comment:


     c. Information gathered regarding student parUcipation and progress in the general education curriculum.
        (300.343)
 Comment


     d. Evaluation procedures related to the referral and prior interventions. (300.533)
 Comment:


     e. Evidence of a~ing students age 14 years and older their needs, preferences and interests. (300.344)
 Comment:


     f. Consent for initial evaluation in writing and in the file. Date:                                   1.505)
 Comment:




                                                                     1

       10/291.2004         09:33       5052487545
                                                                                                        Attachment
                                                                              DOl BIA OlEP CSI                              PAGE   04/11


Student~!!!!!!!!!!!~~~_ _Teach'er; ~!!!~~!!~                                                ____                  Date: 07109/2004

        g. Variety of evaluation tools and stra.tegies used        to   gather relevant, functional & developmental information.
             (300.532)
 Comment

                  ...  -
'---.-.--., .. -.---..•... --- --           --
                           ... ,---•...--~..•...              __
                                                 ..' ... '-.--...- .....__ .. .---_..
    h. Tests are not biased in terms of race, gender, culture, or socioeconomic status. (300.532) 

                                                                                                                        "--"
 Comment 


f-o...- - - - - - . - -..•- -..•.- -                 -
        i. Evaluation conducted in na.tive language or other mode of communication where appropriate. (300.532)
                                                                                                                            ­
 Comment:

r------,
    j. Student evaluated in all areas of suspected disability.. (300.~32)
 Comment:

                                                                                   ..
   . k. Current"evaluation was condUdfi)d by i1 t~am qf. profesSIonals, inc.lliding. parental Input. (300.532 & 535) 

 Comment: .                  .           .         .



        i. Current evaluation is less than three yeaJS old. DATE:                                        ,43) 

 Comment: 



        m. Most racent three-year evaluation/review was held within required timelin•. (300.343)
 Comment:


        n. Consent for Reevaluation in file if team determines reevaluation is necessary. DATE:
                                                                                                                                     _   .•..­

        (300.536) .
 Comment:

    o. Continued eligibility documented if team determines that a reevaluation is not required to document the
       students continued eligibility for special education services. (300.533) 

 Comment: 



 3. Eligibility
     a. Evaluation Report completed and in the file. DATE:                                     .42) 

  Comment: 



     b. Eligibility determination documented & in file. DATE:                         I)
        (Evaluation Report and Eligibility determination may be the same document.) 

  Comment: 



         c. Determination by multidisciplinary team. including parent. (300.543)
  Comment:


         d. AI' eligibility oriteria dooumented. (300.530 & 543)
  Comment:


                                                                           2

  10/29/2004           09:33
                                                                                                                          Attachment
                                       5052487545                                      DOl BIA OlEP CSl                                            PAGE       05/11


                                                                                                                                    Date: 07/09/2004
    e.             ' exited when' eligibility team determines that student is rio longer eliJJible for services. (300.320) 

 Comment: 


I--~-~'~"---'-'-""-~-'--'''''''''-:-'----'--''-::------:~-~'~~------:-:-''.-~--___-_:____=~~--_:__-,----~-_+--.-__I
   f. Section 504 is used as another service option for children with disabilities. (BIA Eligibility Document) 

 Comment 


  "'""",.'-,,----_,',",, ..,"""_,, ____ "'_ _ "'--.,_ _ _"'__ '''-·"_ _ _ _ _~'_",w ....,....'''_·_,,...,,_.._ _ _.'''~_·_ •••"_ _" ..- _ _ _ _ _ ,,.._ _ _ _ _ _~"'_,,_+-_I

      g. Copy of report given to parent(s). (300,,534)
 Comment:



 4. INDIVIDUALIZED EDUCAT~ON PROGRAM (IEP)
      a. Clirrent IEP In students file. DATE: 	                                          342)
 Com~nent:


      b. InitiailEP                                         d.ys of elfgibility
 C9inme~: '


      c. Current IEP is less than one year (365 days) old. (300.342)
 Comment:


    d. IEP implementation date is defined on the IEP. (300.382)
 Comment


 5. Appropriate participants included on the IEP team: (300.344) ,
      a. 	 Parent(s) (300.344)
      b. 	 School administrator who is qualified to provide or supervise the provision of specially designed instruction,
           who is knowledgeable about the general education curriculum, and who is knowledgeable about the
           availability of resources (can commit school funds)" (300.344 & 540»
      c" 	 Special education teacher. (300.344)
      d. 	 General education teacher(s)" (300.344)
      e. 	IndMdual who can interpret test results and instructional implications. (300.540)

      f. 	 Student (must be invited if 14 or older). (300.344)
      g. RepresentatiVe of private school or a representative (300.401 & 344)
 Comment:




 6. IEP content:           (300,,346 & 347)
       a. 	 Statement of present levels of educational performance, including how disability affects involvement and
            progress in general education curriculum. (300.347)
  Comment:


                                                                                     3

    1121/2~/21211214           1219:33    512152487545                                DOI BIA OIEP CSI
                                                                                                                   Attachment
                                                                                                                                               PAGE          136/11


Studcmt~ F.,                                  I              Teacher:
                                                                            ',,' ..
                                                                                      a    7                                  Date: 07/09/2004
          b. Measurable annual goals. (300.347)
 Comment

1--'-- -"'--'''"...--,.. ' ,'-'" .....- -... - - -..•.-~.---,,----......- - -..,.--,.""-.--.-----.~-- .--...- -..'..- -..-.-'-.-'-----.--'­     --"'''''-1­                -­
    c. Goals are challenging, reflect high expectCltion and yet attainable. (300.347)                                                         ---.                   .._­
 Comment:

f----.,..- -.. ­ ...... , """'--""'" ...-~-.'-------.--..--.----------~--.--.-.•.•. --.-~~,----+___-1
        d. Two or more short-term objectives/benchmarks for each goal. (300.347)
    .
 Comment:
                    ..
               "
                                                                                                                                                                ~,
 --+,-------.----.---------~---------------------~+~')'~-I                                                                                                           .:.
      ;~. A statement of how.the child', ~re,n.t(s). will 'be .regularly I~formed on .their chi!d's progress toward the goals,                                      Ii
    ! ,j
      '
          and .the, eXtent tn which that progr.· is sufficieril to enable the child to achieve th~ goals by the end of the year.
                   (300.347)                      .          '. '                                             , .
                                                                                                                                                                I Jl
                                                                                                                                                                Itr
 corl1ment:                                                                                                                                                 /: I:;
                                                                                                                                                       .!
                                                                                                                                                     ,/.




    f. Consideration of extended school yeQr services. (300.309)
 Comment:

~--------------------------------------------------------~-~
    g. Consideration of assistive technology needs. (300.346)
 Comment:

~-------------------------------------------------------------------------------.----+-~.-
    h. Consideration. if appropriate, of LEP needs, monitoring hearing aids, and/or use of Braille. (300.346)
 Comment:


    i. Consideration of behavior intervention needs. (300.346)
 Comment:


      j. If required, positive behavioral supports are appropriate to reduce suspension/expulsion. (300.346)
 Comment:

~------------------------------------------------------------------------------------r------
    k. A statement of indMdual modlftcations in the administration, state, or school wide assessment, or why the
       assessment is not appropriate and how the student will be assessed. (300.347)
 Comment:


          I.       An explanation of the e)(l:ent, if any, to which the child will not participate With non disabled peers in the general
                   education classroom, general education ourriculum, extra.curricular, snd/or other nonacademic actMties.
                   (300,347)
 Comment


          m. A listing of each special education and related services indicating amount of time. start date and duration.
                   (300.347)
 Comment


                                                                                 4

             10/2~/2004       09:33        5052487545
                                                                                  DOl BlA OIEP CSl
                                                                                                                                   PAGE   07/11
Student                        ~~~!!!L           __'TeaCher;"""'"                               	                 Data: 07/09/2004
           n. A I~ng of'accommodations j modifications, and support in general and special education. (300.347) 

    Comment: 


    ~.'---"-.-~     .•-"---.--".--.------.,,.-,,-.-.- ...   -.,,-,,---.~-.                 .-,.-~---

           o. IEP focuses on improving academic skills and educational performance. (300.347) 

                                                                                                         ..   -,.-----~.-    ---- --­
                                                                                                                            ..

    Comment 


    ~------"-.".-,,.--,,----.-----.-----.-----~---,-.-                             ..- ---... ",,--_._,,-.---_._--_..._"_._.,,---_.
        7. 	Statement of transition service needs beginning at age 14:
            ~.   At age 14. a course of study is defined. (300.347) 

    Comment: 



           b. At age 16, a statement of interagency responsibilities or any need linkages. (300.347) 

        Comment: 

.   "



       ... c>Re(ll"eSentatiVeS ftom other agel)cies ar.e·in~ed and.attend the transition meeting (age 16+). (300.344) 

    . Comment: 



            d. 	Not later than their 11th birthday, an explanation that rights will transfer to the student at age 18. (300.347)

        Comment:


           e. Graduation requirements addressed. (300.347) 

        Comment: 



            f.. 	 Students age 14 and older are being prepared      to successfully transition to work, independent living, or
                 additional education services that facilitate SuccessfUl tmnsitton from SChool to work or from school to
                 post-secondary education. (300.347)
        Comment:


        8. Documentation 	 of altemative methOds of gaining input from participants not In 

           attendance, where appropriate: 

            a. Parent(s). (300.345) 

        Comment: 



            b. Transition-age student. (300.345) 

        Comment: 



            c. Agency representative(s) responsible for providing preschool or secondary tranSition services. (300.345) 

        Comment: 



           d. Private school representative(s).
        Comment



                                                                             5

  10!2S!2004        09:33       51352487545                            DOl BlA OlEP CSl                            PAGE   08/11
                                                   Teachen                  ~'                          Date: 07
9. Placemer:tt      and Services:
   a. Pa.rental Consent for Placement included in file. DATE:                                 i05)
Comment


    b. All services defined on the IEP a.re provided and promote a high quality education. (300.142)
Comment:


10. Invitation    (300.345)
    a. Parent informed of purpo5e, time location and attende&S of formal meetings. (300.345)
cornment:


    b. InVitation Includes Infonnation regarding t!'le parents' rights to bring other, people to the meeting.
     (300.345)                                                                            ,
Corinnent:

    c. Invftation meBts secondarY transQion requirement. (300.341 & 348)
tcim~8nt:

    d. Current Procedural Safeguards brochure provided along with inVItation to meating. (300.343 & 533)
Comment:


    e. Dooumentation of attempts to arrange a mutually agreed upon time and place for the meeting. (300.345)


Comment:



    a. For the initial assessment. (300.503)
Comment:


    b. Prior to implementation of IEP. (300.503)
Comment:


    C.   Prior to a change in a.n IEP. (300.503)
Comment:


   d. Prior to a change In placement. which includes graduation. (300.503)
Comment:

   e.                  reevalLlation
Comment:

   f. All Written Notices answer the five questions required by IDEA. (300.503)
Comment:


                                                                  6

                                                      5052487545                                                Attachment
                                                               A tta. C h m eM.' -t-DOlc.~BIA OlEP CSI                                     PAGE      09/11


    STUDEN,T:                                                                    DaB:

I
                   -                                                                                            DATE:                  .
       ~ESENT LEVELS OF EDUCATIONAL PERFORMANCE-                                           Describe ;n PLAIN TI2RMS: (a) What the student
          and CANNOT DO compared to the same grade peers, (b) how the child's disability affects involvement and progress in the general
       ~CCltion curriculum, (c) as appropriate, performance on any general school·wlde assQssment programs, and (d) parental concerns,




           .


                                  '"
                                         "
                       ,""',","': ....   ',".
                                                '"




    Parents will        b~:"inforrned Q~,pr.o9r~ss: I                                      .             "I Method:        I                                I

                                                                     , 'ANNUAL,GOAL                                                                 Goal
    Annual        Go~l#                               (Linked to PLEP.MeASURAsLS'& reasonably acoomplished within 12 months. )                      Co~e




    EXTENDED SCHOOL YEAR                                 o Yes   ONo     o Postponed until (Initial IEP only)      Complete ESY form to make. del,erminatjor .

                                                SHORT TERM OBJECTIVES or BENCHMARKS (Minimum of 2)
                                             (If STO's are used each objective must have a Behavior, Condition & Criteria.)

     " I




    Evaluation Procedures:                                                                      Positions Responsible:




~
    Evaluation Procedures;                                                                      Positions Responsible:




~                

    Evaluation Procedures:                                                                      Positions Responsible:




    ~             

           "Jation Procedures:                                                                  ' Positions Responsible:



                                                                        form 21 Fage D
         10!2S!2004       09:33       5052487545,                            DOl BlA OlEP CSl       Attachment
                                                                                                                      PAGE    10/11
                                              At\ttCh VVlevtf D
IEP DATE: 	
              .   ----------------­
                                                 EXCEPTIONAL EDUCATION
                                                   PROGRESS REPORT
          !ctions: Update and provide to parents with report cards. \fl~~~:~
                                                                                                 [
     I   UDENT:                                                    DOB:                                DATE·
    Goal Progress: 

    1 ~ This goal has been met. 

    2= Progress has been made toward the goal. It appears that the goal will be met by the annual review date. 

    3= Progress has been made toward the goal but the goal may not be met by the time the annual review date. 

    4:::: Progress is not sufficient to meet this goal by the annual review date. An IEP amendment i~ required. 

    5='Your chi!d did not work on this goal during thil:i reporting period. (Provide an explanation to the parents.) 


    Annual Goal #                 Define goal in space provided.                                                         Goal COde




     Report ,1.:' Dat~:                        Goal Progl'ess,,:   01 02 03 04 05
    'Corntnent '


    Repor1: 2: Date:                           Goal Progress:      01 02 03 04 05
    Comment:

    Report 3: Date:                            Goal Progress:      01 02 03 04 05
    Comment:

    Report 4: Date:                            Goal Progress:      01 02 03 04 05
          llment:

    Report 5: Date:                            Goal Progress:      01 02 03 04 05
    Comment:

    Report 6: Date:                            Goal Progress:      01 02 03 04 05
    Comment:


    Report 7: Date:                            Goal Progress:      01 02 03 04 05
    Comment:

                                 At the end of the IEP goal period, anSwer the following questions.
    Progress: Is the child making progress expected by the IEP taam?   Independance; Is the child more independent in goal area?
          o  Goal met 
                                                       0 Greater independence
       0     Goal not met,  but performance   improved   
                    0 Unchanged independence
       0 No change or poorer performance 
                                    0 Less independence
       0 Insufficient data for decision making 
                              0 1nsufficient data for decision making
    Comparison to peers or standard: How does the child's performance   Goal Status: Will work in the goal area be continued or
    compare with general education peers or standards?                  discontinued?
                                                                                                              Co ntinue goal area:
       0 	 Comparison to age or grade level peers or standards not Discontinue goal area:
             appropriate                                                      o
                                                                            Success, no further educEI- D More advance work
       0 Less discrepancy from peers or standard 
                          tion needs in goal area               in goal area
       '-::J Same discrepancy from peers or standard 
                 0 Goal area is not a priority           o  Continue as written
          0   More discrepancy from peers or standard 
                           for the next year
                                                                              0   Limited progress, plateau
I         0   Ins'ufficient data for decision making
                                                                   Form 23
  10/29/2004            09:33           5052487545                            DOl BlA OlEP CSl            Attachment     PAGE   11/11
                                                    A'-t-\-{tC;{t) VV'\ tnt             [::.
                                                   Exceptional Education
                                                           Contact Log
    Aent Name:
ParenUGuardian Name:
                         -------------------------------                                       Daytime Phone:
Date:                                Person Contacted:                            Purpose of Contact:
Meeting Notice:            -·O"Meeting D~te 0 Meeting Time 0 Meeting Location 0 Person(s) Attending
Commonts:


Date:                               Person Contacted:                             Purpose of 'Contact:
         --::--;-:-:,-----­
Meeting Notice:              o Meeting Date        0   Meeting Time   0   Mee.ting l,ocation 0 person(s) Atten,dlng
Comments:


Date:··                       Pel'$on Contacted:,                   Purpo., of Contact:
Meetin-g~N"!""o~ti-ce-:-'--:'0 M~eti~g D'~ted Meeting Time 0 Meeting L6cati~n [j Pers~n(s) Attending
Conllnen,b:


Date:                                Peraon Contacted:                            Purpose of Contact:
         ~~~--=
Meeting Notice:              o Meeting Date        0 Meeting Time 0 Meeting Location D Person(s) Attending
Comments:


    ~:                               Pereon   Contacted~                          Purpose of Contact:
,..Ieeting Notice:           o Meeting Date
         --:-":""""':-----::::::;
                                                   0 Meeting Time D Meeting Location 0 Person(s) Attending
Comments:


Date:                               Person Contacted:                            Purpose of Contact:
Meeting Notice:              o Meeting Date
         --:-.,.....,.,-~---==
                                                   0   Meeting Time   0   Meeting Location     0   Person(s) Attending
Comments:


Date:                                Person Contacted:                            Purpose of Contact:
         --:-":""-:':~----:=
Meeting Notice:              0      Meeting Date   0   Meeting Time 0 Meeting Location         0   Person(s) Attending
Comments:


Date:                                Person Contacted:                            Purpose of COl1tact:
      - - - - - - = = Meeting Date 0 Meeting Time 0 Meeting Location 0 Person(s) Attending
                             o
Meeting Notice:
Comments:


Date:                                Person Contacted:                            Purpose of Contact:
Meetin-g-N-o-ti-ce-:-----:D= Meeting Date          0   Meeting Time   0   Meeting Location     0   Person(s) Attending
    "ments:


                                                                 Form 27
                                                         ATTACHMENT F 

                         TURTLE MOUNTAIN ELEMENTARY AND MIDDLE SCHOOLS 

                                CORRECTIVE ACTION PLAN FOR 2004-2005 

Objective                          Strategies                                Benchmarks/                            Timeline
                                                                             Evidence ofChange
School will have progress          (1) Special education teachers will use (1) ISEP validation of all special       (1) ISEP by October 22,
reports in 100% of student files   required forms to document progress     education files and (2) Second Tier      2004; (2)Second Tier
with evidence to show that         of students with disabilities; (2)      monitoring done between Jan. and         results due by April 2005;
parents have received them as      Special education teachers will use     April of each year, both conducted       quarterly (3) June 2005
evidenced through scheduled        required forms to document contact      by agency staff; on-site visits from
and random visits from the         made with parents to inform them of     the agency to verify progress notes
Turtle Mountain Education          their child's progress. (3) the school  were sent to parents of all children
Line Office staff.                 will distribute a survey to parents of  with disabilities. (3) School special
                                   all students with disabilities on the   education coordinator will collect
                                   effectiveness of the program.           and verify parent surveys for
                                                                           agency validation.
School will provide                (1) Special education teachers will use (1) ISEP validation of all special       (1) ISEP by October 22,
documentation in 100% of           required forms to document progress education files and Second Tier              2004; Second Tier results
their student files showing        of students with disabilities therefore monitoring done between Jan. and         due by April 2005; (2)
services have been provided to     indicating service was provided; (2)    April of each year, both conducted       quarterly
students with disabilities as      Special education teachers will         by agency staff; (2) School special
verified through scheduled and     maintain attendance records             education coordinator will verify
random visits from the Turtle      documenting frequency and duration attendance records for agency on-
Mountain Education Line            of services provided to students with   site validation visits.
Office.                            disabilities.

School will finalize their         (1) Turtle Mountain elementary and        The updated policies and               December 20, 2004
Special Education Policies &       middle school special education staff     procedures manual will be
Procedures Manual to include       will meet to update their policies and    available on-site at the school, and
a statement of how and when        procedures manual; (2) The P&P will       kept on file at the Turtle Mountain
parents are notified of their      be presented to school board for          Education line office and the
child's progress.                  approval and signature.                   Center for School Improvement.         May 2005




                                            Page 1                                  1113/2004
